OIG Investigative Reports,  Fargo, ND., April 18, 2012 -  St. Michael Man Sentenced for Embezzlement from Indian Tribal Organizations
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
District of North Dakota
NEWS
St. Michael Man Sentenced for Embezzlement from Indian Tribal Organizations
FOR IMMEDIATE RELEASE
April 18, 2012
FARGO - U.S. Attorney Timothy Q. Purdon announced that on April 18, 2012, Raymond Jetty III, of St. Michael, North Dakota, was sentenced before United States District Judge Ralph R. Erickson on two separate incidents of embezzlement from an Indian Tribal Organization. Jetty III, 39, pleaded guilty to the charges on Dec. 12, 2011.
Judge Erickson sentenced Jetty III to two years of supervised probation. Jetty III was ordered to pay restitution totaling $41,057.32, and to pay a $50 special assessment to the Crime Victim's Fund.
Jetty III was charged with embezzlement from the Spirit Lake Tribe’s Vocational Rehabilitation Program (Voc-ReHab). Jetty III admitted that he allowed his wife, who was employed by Voc-ReHab, to use and sign his name to requests to illegally obtain financial benefits of $35,412.77, that he was not entitled to receive.
Jetty III was also charged with theft and embezzlement from a second Indian tribal organization, the Spirit Lake Tribe’s Low Income Home Energy Assistance Program (LIHEAP).
In pleading guilty to this second charge, Jetty III admitted that he knew a heating assistance application for his household failed to include the total income of his household as is required on the application for eligibility. The failure to include household members and total income caused Jetty III’s household to illegally receive heating assistance of $5,644.55, which he would otherwise not have been entitled.
The case was investigated by the Federal Bureau of Investigation.
Assistant U.S. Attorney Janice M. Morley prosecuted the case.
Top
Printable view
Last Modified: 04/25/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov